Appendix

Case: 20-50711

Document: 00515752088

Page: 1

Date Filed: 02/22/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
February 22, 2021

No. 20-50711
consolidated with
No. 20-50714
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Domingo Cruz-Miguel,
Defendant—Appellant.
Appeals from the United States District Court
for the Western District of Texas
USDC No. 4:19-CR-814-1
USDC No. 4:20-CR-56-1
Before Clement, Higginson, and Engelhardt, Circuit Judges.
Per Curiam:*

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

1a

Case: 20-50711

Document: 00515752088

Page: 2

Date Filed: 02/22/2021

No. 20-50711
c/w No. 20-50714

Domingo Cruz-Miguel appeals his sentence of 87 months in prison,
which the district court imposed following his guilty plea conviction for
illegal reentry in violation of 8 U.S.C. § 1326. He also appeals from the
judgment revoking his supervised release, which had been imposed after a
prior illegal reentry conviction. Cruz-Miguel contends that the recidivism
enhancement under § 1326(b)(2), which was applied in his case, is
unconstitutional because it allows a sentence above the otherwise applicable
statutory maximum of two years of imprisonment, see § 1326(a), based on
facts that are neither alleged in the indictment nor found by a jury beyond a
reasonable doubt. He concedes the issue is foreclosed by Almendarez-Torres
v. United States, 523 U.S. 224 (1998), but he seeks to preserve the issue for
further review.

The Government has filed an unopposed motion for

summary affirmance, asserting that Cruz-Miguel’s argument is foreclosed.
The parties are correct that Cruz-Miguel’s assertion is foreclosed by
Almendarez-Torres. See United States v. Wallace, 759 F.3d 486, 497 (5th Cir.
2014); United States v. Rojas-Luna, 522 F.3d 502, 505-06 (5th Cir. 2008).
Further, Cruz-Miguel has abandoned any challenge to the revocation of his
supervised release by failing to brief an argument as to the revocation. See
Yohey v. Collins, 985 F.2d 222, 224-25 (5th Cir. 1993). Accordingly, the
motion for summary affirmance is GRANTED, see Groendyke Transp., Inc.
v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969), the Government’s motion for
an extension of time to file a brief is DENIED, and the judgments of the
district court are AFFIRMED.

2
2a

8 U.S.C. § 1326. Reentry of removed aliens
(a) In general
Subject to subsection (b), any alien who—
(1) has been denied admission, excluded, deported, or removed
or has departed the United States while an order of exclusion, deportation, or removal is outstanding, and thereafter
(2) enters, attempts to enter, or is at any time found in, the
United States, unless (A) prior to his reembarkation at a
place outside the United States or his application for admission from foreign contiguous territory, the Attorney
General has expressly consented to such alien's reapplying
for admission; or (B) with respect to an alien previously denied admission and removed, unless such alien shall establish that he was not required to obtain such advance consent under this chapter or any prior Act,
shall be fined under Title 18, or imprisoned not more than 2
years, or both.
(b) Criminal penalties for reentry of certain removed aliens
Notwithstanding subsection (a), in the case of any alien described in such subsection—
(1) whose removal was subsequent to a conviction for commission of three or more misdemeanors involving drugs, crimes
against the person, or both, or a felony (other than an aggravated felony), such alien shall be fined under Title 18,
imprisoned not more than 10 years, or both;
(2) whose removal was subsequent to a conviction for commission of an aggravated felony, such alien shall be fined under
such title, imprisoned not more than 20 years, or both;
(3) who has been excluded from the United States pursuant to
section 1225(c) of this title because the alien was excludable
under section 1182(a)(3)(B) of this title or who has been removed from the United States pursuant to the provisions of
subchapter V, and who thereafter, without the permission

3a

of the Attorney General, enters the United States, or attempts to do so, shall be fined under Title 18 and imprisoned for a period of 10 years, which sentence shall not run
concurrently with any other sentence. or
(4) who was removed from the United States pursuant to section 1231(a)(4)(B) of this title who thereafter, without the
permission of the Attorney General, enters, attempts to enter, or is at any time found in, the United States (unless the
Attorney General has expressly consented to such alien's
reentry) shall be fined under Title 18, imprisoned for not
more than 10 years, or both.
For the purposes of this subsection, the term “removal” includes any agreement in which an alien stipulates to removal
during (or not during) a criminal trial under either Federal or
State law.
(c) Reentry of alien deported prior to completion of term of imprisonment
Any alien deported pursuant to section 1252(h)(2) of this title
who enters, attempts to enter, or is at any time found in, the
United States (unless the Attorney General has expressly consented to such alien's reentry) shall be incarcerated for the remainder of the sentence of imprisonment which was pending
at the time of deportation without any reduction for parole or
supervised release. Such alien shall be subject to such other
penalties relating to the reentry of deported aliens as may be
available under this section or any other provision of law.
(d) Limitation on collateral attack on underlying deportation order
In a criminal proceeding under this section, an alien may not
challenge the validity of the deportation order described in subsection (a)(1) or subsection (b) unless the alien demonstrates
that—
(1) the alien exhausted any administrative remedies that may
have been available to seek relief against the order;

4a

(2) the deportation proceedings at which the order was issued
improperly deprived the alien of the opportunity for judicial
review; and
(3) the entry of the order was fundamentally unfair.

5a

